NO.
IN THE
SUPREME COURT OF THE UNITED STATES

VINCENT LYLE BAD KIN,
Petitioner
v.
LOCKHEED MARTIN CORPORATION, a Maryland corporation, dba
LOCKHEED MARTIN SPACE SYSTEMS COMPANY; and
INTERNATIONAL ASSOCIATION OF MACHINISTS AND AEROSPACE
WORKERS, DISTRICT 160 AND LOCAL LODGE 282, a Washington
Labor Union,
Defendants

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Ahmet Chabuk
11663 Ivy Ln NW
Silverdale, WA 98383
(360) 692-0854
Attorney for Petitioner

QUESTIONS PRESENTED
In this "hybrid § 301" claim brought under Section 301 of the Labor Management
Relations Act, 29 U.S.C. § 185, the Ninth Circuit Court of Appeals “has so far departed
from the accepted and usual course ofjudicial proceedings as to call for
exercise of this Court's supervisory power.”
1. Badkin filed this court action against Lockheed Corporation for his wrongful
termination in breach of the collective bargaining agreement (CBA); and against the
Union’s for breach of its duty of fair representation for "handling his grievance
arbitrarily, perfunctorily, discriminatorily, dishonestly, and in badfaith
with a reckless disregardfor Badkin’s rights
Badkin testified during his deposition that several months earlier he had
problems at work with Lockheed when he had complained about certain hazardous
electrical safety violations and that the Union had not supported him against Lockheed
at that time.
During the oral arguments at the Court of Appeals, Badkin's attorney focused on
the record of the Union's handling his grievance "arbitrarily, perfunctorily,
discriminatorily, dishonestly, and in bad faith with a reckless disregardfor Badkin’s
rights" by focusing on the Union's contradictory after-the-fact declaration on it's
allegations why it failed to take the grievance to arbitration even though Badkin never
argued about the Union's failure to take the grievance to arbitration - because the
Union had secretly settled and agreed with Lockheed and dismissed Badkin's grievance
without his knowledge long time earlier.
Yet, in its memorandum ruling, the Court of Appeals misquoted what Badkin was
asking in his complaint and incorrectly opined that "Badkin alleges .. .(2) the Union
i

breached its duty offair representation by declining to advance Badkin's
grievance to arbitration” - even though Badkin never argued about the Union's
failure to take the grievance to the arbitration because the Union had already secretly
settled with Lockheed and dismissed Badkin's grievance without his knowledge.

2. Badkin could not afford to retain a powerful / expensive law firm for his
complaint against the large and powerful Lockheed Corporation and against the Union
because he was wrongfully terminated and unemployed with no income.
Instead, Badkin could afford to retain only a solo practice, pro bono attorney, to
face such a large corporation and the Union, who could afford powerful law firms.
No reasonable jury would disagree with the proposition that if Badkin could have
afforded an expensive/ powerful law firm, the lower courts would not have overlooked
the merits of Badkin’s grievance and the Union’s breach of its duty of fair
representation.
The words of Justice Hugo Black apply here: "There can be no equal justice
where the kind of trial a man gets depends on the amount ofmoney he
has." Justice Hugo Black in Griffin v. Illinois, 351 U.S. 12 (1956).
Badkin respectfully asks this Court to grant his petition because the Ninth Circuit
Court of Appeals “has so far departed from the accepted and usual course ofjudicial
proceedings as to call for exercise of this Court's supervisory power.”
LIST OF PARTIES
The parties below are listed in the caption: Vincent Badkin, Petitioner v.
Lockheed Martin Corporation, a Maryland Corporation, DBA Lockheed Martin Space
Systems Company; and International Association of Machinists and Aerospace
ii

Workers, District 160 and Local Lodge 282, a Washington Labor Union.
CORPORATE DISCLOSURE STATEMENT
There is no parent or publicly held company owning 10% or more of the
corporations stock.
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

I

LIST OF PARTIES

ii

CORPORATE DISCLOSURE STATEMENT

iii

TABLE OF CONTENTS

iii

TABLE OF CITED AUTHORITIES

iv

TABLE OF APPENDICES

v

OPINION BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

3

REASONS FOR ALLOWANCE OF THE WRIT

8

iii

TABLE OF CITED AUTHORITIES
Air Line Pilots Association v. O'neill et al. 499 U.S.65, (1991).

2,7

Dutrisac v. Caterpillar Tractor Co. 749 F.2d 1270 (9th Cir. 1983)

8

Ford Motor Co. v. Huffman, 345 U. S. 330 (1953)

2,3

Galindo v. Stoody C0.793 F.2d 1502 (9th Cir. 1986).

2

Gregg v. Chauffeurs, 699 F.2d 1015, (9th Cir.1983).

7

Griffin v. Illinois, 351 U.S. 12 (1956)

ii, 2, 3

Humphrey v. Moore, 375 U. S. 335, 349~350;

2,3

Pegany v. C&H Sugar Co., 201 F.3d 444, at 445,(9th Cir. 1999)

7

Peters v. Burlington, 931 F.2d 534, 538 (9th Cir.1990)

7

Peterson u. Kennedy, 771 F.2d 1244,1253-54 (9th Cir. 1985)

8

Robesky v. Qantas Empire, 573 F.2d 1082, (1978).

7

Tenorio u. NLRB, 680 F.2d 598, 602 (9th Cir.1982).

8

Vaca v. Sipes 386 U.S. 171 (1967)

2, 3,1, 8,

Hybrid § 301 - 29 U.S.C. § 185

1

iv

TABLE OF APPENDICES
Page
APPENDIX A

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E

APPENDIX F

Order and Amended Memorandum,
dated 08/31/2020, denying petition
for re-hearing

1

Petition for Panel Rehearing and Petition
for Rehearing En Banc

2

Memorandum Disposition,
filed on July 21, 2020

2

Supplemental Brief of Appellant
Vincent Badkin, in U.S. Court of Appeals

x

Motion for Judicial Notice and for Leave
to File Supplemental Brief, in the Court
of Appeals, (the motion was granted).

2

Order Granting Defendants' Motions for
Summary Judgment, U.S. District Court

2

v

OPINION BELOW
1. The unpublished ORDER of the United States Court of Appeals for the Ninth
Circuit, Case No. 19-35524, dated 08/31/2020, Amending the Prior memorandum
disposition filed on July 21, 2020, and denying petition for re-hearing, is at
APPENDIX A
2. The unpublished Memorandum Disposition filed on July 21, 2020, United
States Court of Appeals for the Ninth Circuit, Case No. 19-35524 affirming the summary
judgment of the District Court, is at APPENDIX B.
3. The Order Granting Defendants' Motions for Summary Judgment, Case No.
C17-5910 BHS, United States District Court Western District of Washington at Tacoma,
filed 05/22/19, is at APPENDIX C.
STATEMENT OF JURISDICTION
1.

The order of the United States Court of Appeals denying re-hearing was on
08/31/2020.

2.

The Petition for rehearing was timely filed on 08/04/2020.

3-

A timely petition for rehearing was denied by the Court of Appeals on
8/31/2020, and a copy of the order is in Appendix A.

4-

An extension of time to file the petition for writ of certiorari was
apparently entered by the Supreme Court for all applicants because of the
pandemic.

5-

The jurisdiction of this court is invoked under 28 USC Section 1254(1).
CONSTITUTIONAL
AND STATUTORY PROVISIONS INVOLVED

1. This is a “hybrid § 301” claim under Section 301 of the Labor
Management Relations Act, 29 U.S.C. § 185 brought by Vincent Badkin against
1

Lockheed Marietta Corporation for wrongful termination and against his Union for
breach of its duty of fair representation.
2. Vaca v. Sipes 386 U.S. 171 at 190 (1967): "A breach of the statutory duty of
fair representation occurs only when a union's conduct toward a member of the
collective bargaining unit is arbitrary, discriminatory, or in badfaith. "
3. Vaca v. Sipes, 386 U.S. at 191 (1967): "to ignore a meritorious grievance
or process it in a perfunctory fashion" may be arbitrary.
4. Vaca v. Sipes 386 U.S. 171 at p. 194 (1967): "In administering the grievance
and arbitration machinery as statutory agent of the employees, a union must, in
goodfaith and in a nonarbitrary manner, make decisions as to the merits
ofparticular grievances. See Humphrey v. Moore, 375 U. S. 335, 349-350; Ford
Motor Co. v. Huffman, 345 U. S. 330, 337-339 . . . the Union might well have breached
its duty had it ignored Omens' complaint or had it processed the grievance in
a perfunctory manner.
5. "Though we accept the proposition that a union may not arbitrarily
ignore a meritorious grievance or process it in perfunctory fashion, we do
not agree that the individual employee has an absolute right to have his grievance
taken to arbitration regardless of the provisions of the applicable collective bargaining
agreement". Vaca v. Sipes, 386 U.S. at 191, (1967).
6. “We hold that the rule announced in Vaca v. Sipes, 386 U. S. 171,190 (1967)
— that a union breaches its duty offair representation if its actions are either
"arbitrary, discriminatory, or in badfaith"—applies to all union activity, including
contract negotiation. We further hold that a union's actions are arbitrary only if in
light of the factual and legal landscape at the time of the union's actions, the
union's behavior is so far outside a "wide range of reasonableness," Ford Motor Co. v.
Huffman, 345 U. S. 330, 338 (1953), as to be irrational. Air Line Pilots Association,
International v. O'neill etAl. 499 U.S. 65, at 67(1991).
7. "A union is prohibitedfrom ignoring a meritorious grievance or
processing that grievance perfunctorily, (citing Vaca, 386 U.S. at 191)... The trial
court properly found that [the unions] failure to notify Stoody was a breach of the
Local's duty affair representation. The judgment against the union was affirmed."
Galindo v. Stoody Co.793 F.2d 1502,1513 (9th Cir. 1986).
**********

8. "There can be no equal justice where the kind of trial a man gets
depends on the amount ofmoney he has." Justice Hugo Black in Griffin v.
Illinois, 351 U.S. 12 (1956).

2

STATEMENT OF THE CASE
l. The Court of Appeals has overlooked all of the relevant facts and failed to
address to the merits of Badkin's grievance even though it was required to do so by the
decisions of the Supreme Court and of the Court of Appeals.
A summary of the facts, the merits of the grievance and the applicable law are
attached in the Appendix B (Petition for Panel Rehearing and Petition for Rehearing En
Banc); Appendix D (Supplemental Brief of Appellant Vincent Badkin, in the Court of
Appeals); and Appendix E (Motion for Judicial Notice and for Leave to File
Supplemental Brief by Appellant Vincent Badkin, in the Court of Appeals.
"A breach of the statutory duty offair representation occurs only when a
union's conduct toward a member of the collective bargaining unit is arbitrary,
discriminatory, or in bad faith." Vaca v. Sipes 386 U.S. 171 at 190 (1967).
"In administering the grievance and arbitration machinery as statutory agent
of the employees, a union must, in good faith and in a nonarbitrary manner, make
decisions as to the merits ofparticular grievances. See Humphrey v. Moore, 375 U. S.
335, 349-350; Ford Motor Co. v. Huffman, 345 U.S. 330,337-339 . . .the Union
might well have breached its duty had it ignored Owens' complaint or had it processed
the grievance in a perfunctory manner. Vaca v. Sipes 386 U.S. 171 at p. 194 (1967).
2. "There can be no equaljustice where the kind of trial a man gets
depends on the amount ofmoney he has." Justice Hugo Black in Griffin v.
Illinois, 351 U.S. 12 (1956).
3. A background of the facts and the wrongful termination of Badkin
While employed by Lockheed Corporation, Badkin received a message from his
teenage daughter, McKenna, that a male acquaintance (named Perez) was harassing her

3

over the phone, that she was afraid to be home alone, and she was leaving for a friend’s
home for her safety. Badkin arrived home to discover that his daughter was gone and
that Perez had broken into his house.
With his lawfully owned handgun, Badkin ordered Perez to come out and remain
there, and shot into the ground and into the engine of Perez's car several times to stop
Perez when Perez tried to assault him with his car and to detain him until the police
arrived. Both Perez and Badkin were arrested. Badkin’s charge of first degree assault was
later dropped. Badkin later entered an Alford plea to gross misdemeanor of unlawful
handling of a firearm and the judge ordered for the return of his firearm.
While Badkin was in detention, for 10 days, he could not report his absence to
Lockheed within the five days, as required by the Collective Bargaining Agreement (the
CBA), but had McKenna report his absence for him. Yet, Lockheed
terminated Badkin as having "voluntarily resigned" with an allegation that he
had failed to report within the five days.
(During the oral arguments at the Court of Appeals it became
apparent that Lockheed had terminated Badkin in violation of the CBA).
After he was released, Badkin met with Robert Westbrook (Westbrook — the
Union representative). After their meeting, it took three weeks and two days for
Westbrook to have Badkin's grievance ready for him to sign - with only a few lines of
text. In the grievance form Westbrook inserted a condition that if the charges were
dismissed Badkin would be allowed to come back to work with no loss of seniority, to
which Badkin agreed.
While waiting for Lockheed to respond to his grievance, two months later, with
his email on July 21, 2016, Westbrook urged Badkin to accept a settlement that he

4

would remain as "voluntarily resigned" and that Lockheed would not oppose his
unemployment benefits, which Badkin rejected and asked Westbrook to proceed
with his grievance. Westbrook offered no explanation for his urging to Badkin. In his
reply email, Westbrook warned Badkin:
"Just keep in mind that there is no guarantee that the Union will take it to
arbitration. Our attorney will review and let me know if he thinks the Union
would prevail in arbitration after Lockheed provides its formal response to the
grievance.” Westbrook offered no explanation for his warning to Badkin.
This email has been the only "explanation" Westbrook provided to Badkin before
the Union secretly settled with Lockheed, just two weeks later, on August 8, 2016, and
dismissed Badkin's grievance for wrongful termination. Westbrook never disclosed the
existence of this secret agreement while misleading Badkin to believe that his grievance
was still in process - apparently because the date of August 8 was in conflict with all of
his later fabrications as excuses for his agreement to dismiss Badkin’s grievance.
While Badkin was still waiting for processing of his grievance, Westbrook made a
number of contradictory, inconsistent, and factually impossible "explanations"
throughout the "grievance process" without ever informing Badkin that the Union had
already signed, on August 8, 2016, and dismissed Badkin's grievance. All of Westbrook’s
allegations were in conflict with the date of August 8, 2016. (see Appendix D and E).
(After the lawsuit was filed, during his deposition, Badkin testified
about his complaints he had with Lockheed a couple of months earlier
about certain hazardous electrical safety issues. And in his appeal briefs,
Badkin argued that Lockheed had apparently terminated him in retaliation/
retribution for his earlier complaints he had at work with Lockheed, and
that the Union had joined forces with Lockheed against him in breach of its
duty of fair representation. The citations to the record are provided in Badkin's
5

Opening Brief, the Reply Brief, as well as his Supplemental Brief in the Appendix).
Finally, in his email on April 26, 2017, Badkin informed Westbrook that he had
fulfilled the requirements for his reinstatement and that he was ready to get back to
work. Westbrook emailed back and falsely claimed that Lockheed did not think Badkin
had fulfilled the conditions for his reinstatement and that Lockheed had closed the file
on him. Yet, Westbrook still made no mention of the fact that the Union had already
settled and dismissed Badkin's grievance a year earlier.
(During the oral arguments in the Court of Appeals it was fairly clear
that Badkin had indeed met the conditions for this return to work — in
addition to the fact that Badkin's termination was in violation of the CBA in
the first place).
Frustrated, Badkin's attorney contacted Lockheed's headquarters directly on the
East Coast for Badkin's reinstatement but learned, for the first time, that the Union and
Lockheed had already signed a settlement agreement a year earlier and dismissed
Badkin's grievance, and Badkin received a copy directly from Lockheed, a year after it
was signed.
Only after the Complaint was filed in court, more than a year after the Union
secretly had "settled" and dismissed Badkin's grievance, Westbrook submitted his
declaration, under penalty of perjury, and tried to "explain" his reasons for not
taking the grievance to arbitration with his additional contradictory, factually
impossible, perjured "explanations" (including the conflicts with the August 8 date of
the settlement agreement) for the Union's agreement dismissing Badkin's grievance for
wrongful termination, and for not taking the grievance to arbitration, (see Appendix B,
D, and E for further details).

6

There has been no offers/counter offers for any negotiations of the grievance
before the Union secretly agreed to and dismissed Badkin's grievance.

4. The Union may have the discretion in processing the grievance but
it must explain its reasoning for it and must do in good faith. However,
Westbrook has done none of it.
“A union's actions are arbitrary only if, in light of the factual and legal
landscape at the time of the union's actions, the union's behavior is so far
outside a 'wide range of reasonableness,' as to be irrational." Air Line Pilots Ass 'n., Inn
v. O'Neill, 499 U.S. 65, 67 (1991)." Pegany v. C&HSugar Co., 201 F.3d 444, at 445,(9th
Cir. 1999).
"A union does not breach its duty offair representation to others as long as it
proceeds on some reasoned basis." Peters v. Burlington, 931 F.2d 534, 538 (9th
Cir.1990).
"A union acts arbitrarily when it ignores a meritorious grievance or processes it
in a perfunctory fashion.” Vaca v. Sipes, 386 U.S. 171,191 (1967)..
"In determining whether the union's decision was arbitrary, the merits of
the grievance and its importance to the employee are relevant to the sufficiency of the
union's representation. Robesky v. Qantas Empire, 573 F.2d 1082, at 1092 (1978).
“The more important and meritorious the grievance, the more substantial
the reason must be to justify abandoning it. Gregg v. Chauffeurs, 699 F.2d
1015,1016 (9th Cir.1983).
“The union negligence may breach the duty affair representation to cases in
which the individual interest at stake is strong and the union's failure to perform a

7

ministerial act completely extinguishes the employee's right to pursue his claim. Here,
the individual interest is strong because the grievance concerns a discharge, the most
serious sanction an employer can impose. Tenorio v. NLRB, 680 F.2d 598, 602 (9th
Cir.1982)." Dutrisac v. Caterpillar Tractor Co. 749 F.2d 1270,1274 (9th Cir. 1983)”
"A union acts 'arbitrarily' when it simply ignores a meritorious grievance or
handles it in a perfunctory manner." Peterson v. Kennedy, 771 F.2d 1244,1253-54 (9th
Cir. 1985) citing Vaca, 386 U.S. at 191, (1967).
REASONS FOR ALLOWANCE OF THE WRIT
Review is warranted because the Court of Appeals misquoted Badkin’s grievance
and his complaint and overlooked all of the relevant facts / merits of his grievance and,
by doing so, favored large Lockheed Corporation and the Union with their well-known
law firms while Badkin could only afford to retain a solo practicing pro bono attorney.
The Court of Appeals has so far departed from the accepted and usual course of
judicial proceeding contrary to the usual course of judicial proceedings (and contrary to
the existing applicable law) as to call for exercise of this Court's supervisory power.
Otherwise, employees who were wrongfully terminated and unemployed with no
money, who cannot afford a well-known law firm, wouldn’t dare to take a legal action
against their large and powerful former employers with their large and well-know law
firms. Badkin, with his solo practice pro bono attorney, should be treated no differently
than the treatment the large and powerful Lockheed Corporation (and the Union) with
their law firms have received.
CONCLUSION
For the foregoing reasons, the petitioner respectfully requests that the Supreme
Court grant review of this petition.

8

Respectfully submitted.
/s/ ahmet chabuk
Ahmet Chabuk
11663 Ivy Ln NW
Silverdale, WA 98383
(360)692-0854
Attorney for the Petitioner

APPENDIX
APPENDIX A

Order and Amended Memorandum, dated 08/31/2020, denying
petition for re-hearing. U.S. Court of Appeals for the Ninth Circuit,
Case No. 19-35524-

APPENDIX B

Petition for Panel Rehearing and Petition for Rehearing En Banc.
U. S. Court of Appeals for the Ninth Circuit, Case No. 19-35524.

APPENDIX C

Memorandum Disposition,
filed on July 21, 2020, U.S. Court of Appeals for the Ninth Circuit,
affirming the summary judgment of the District Court.

APPENDIX D

Supplemental Brief of Appellant Vincent Badkin,
In the U.S. Court of Appeals for the Ninth Circuit.

APPENDIX E

Motion for Judicial Notice and for Leave to File Supplemental Brief,
in the Court of Appeals, (the motion was granted).

APPENDIX F

Order Granting Defendants' Motions for Summary Judgment, Case
No. C17-5910 BHS, United States District Court Western
District of Washington at Tacoma. Filed 05/22/19.

/////

9

